No.
IN THE

Supreme Court of the United States
DERRICK VAUGHN,
v.

Petitioner,

UNITED STATES OF AMERICA,

Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

CERTIFICATE OF SERVICE

I, Paul D. Geiger, counsel for Petitioner Derrick Vaughn, certify that on this
30th day of June, 2021, one paper copy of Petitioner’s Petition for Writ of Certiorari,
Appendix to the Petition for Writ of Certiorari, Application for Leave to Proceed In
Forma Pauperis and Certificate of Compliance with Supreme Court Rule 33 was
sent via Express Mail by United States Postal Service to:
Office of the Clerk
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543
I further certify that on the same date, with the consent of counsel for the
government, one copy each of the above referenced documents was served
electronically upon the Solicitor General of the United States at the following email
address: supremectbriefs@usdoj.gov
I further certify that all parties required to be served have been served.

Dated: June 30, 2021

s/Paul D. Geiger
Paul D. Geiger

Counsel of Record

LAW O FFICES OF PAUL D. G EIGER
540 W. Frontage Road, Suite 3020
Northfield, IL 60093
(773) 410-0841
pauldgeiger@gmail.com

Counsel for Derrick Vaughn

